                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




AGREED-UPON PROCEDURES OF CORPORATION FOR
  NATIONAL AND COMMUNITY SERVICE GRANTS
  AWARDED TO NATIONAL COUNCIL OF LA RAZA

                      OIG REPORT 09-09




                            Prepared by:

                  Mayer Hoffman McCann P.C.
              Conrad Government Services Division
               3 Bethesda Metro Center, Suite 600
                      Bethesda, MD 20814




This report was issued to Corporation management on March 31, 2009. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
September 30, 2009 and complete its corrective actions by March 31, 2010.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                       March 31, 2009


TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit


SUBJECT:       Report 09-09, Agreed-Upon Procedures of Corporation for National and
               Community Service Grants Awarded to the National Council of La Raza


We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann, P.C. (MHM) to perform agreed-upon procedures in its review of Corporation grants
awarded to National Council of La Raza (NCLR). The contract required MHM to conduct its
review in accordance with generally accepted government auditing standards.

MHM is responsible for the attached report, dated March 31, 2009, and the conclusions
expressed therein. We do not express opinions on MHM’s Consolidated Schedule of
Awards, and Claimed and Questioned Costs, conclusions on the effectiveness of NCLR’s
internal controls, or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by September 30, 2009. Notice of final action is due by March 31, 2010.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:     Janet Murguía, NCLR, President and Chief Executive Officer
        Gerald Borenstein, NCLR, Vice President and Chief Financial Officer
        Rogelio Quintanar, NCLR, AmeriCorps Assistant Director
        Claudia Rosario, NCLR, Controller
        William Anderson, Acting Chief Financial Officer
        Rocco Gaudio, Deputy Chief Financial Officer, Grants and Field Financial Management
        Claire Moreno, Senior Grants Officer
        Sherry Blue, Audit Resolution Coordinator
        Wilfredo Corps, MHM, Audit Manager



                  1201 New York Avenue, NW Suite 830, Washington, DC 20525
                    202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                      Senior Corps   AmeriCorps   Learn and Serve America
  AGREED-UPON PROCEDURES OF CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
             GRANTS AWARDED TO THE NATIONAL COUNCIL OF LA RAZA

                                  Table of Contents

                                                                          Page

Executive Summary                                                          1

Independent Accountants’ Report on Applying Agreed-Upon Procedures         4

   Results – Costs Claimed                                                 4

       Consolidated Schedule of Awards and Claimed Costs                   5

       Notes to Consolidated Schedule of Awards and Claimed Costs          5

       Exhibit A: Schedule of Awards and Claimed Costs by Grant            6

       Schedule A-1 – Schedule of Award and Claimed Costs, Spanish         7
                      American Civic Association (SACA)

   Results – Compliance and Internal Control                               8

Exhibit B –   Consolidated Schedule of Recommendations and Questioned
              Cost

Appendix A – National Council of La Raza Response to Draft Report

Appendix B – Corporation for National and Community Service Response to
             Draft Report
                                  EXECUTIVE SUMMARY


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures on grant costs and compliance for Corporation-funded Federal assistance
provided to the National Council of La Raza (NCLR).

Results

As a result of applying our procedures, the auditors questioned claimed Federal-share costs
of $7,694. A questioned cost is an alleged violation of provision of law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure
of funds; or a finding that, at the time of testing, such cost is not supported by adequate
documentation. The cost results of our agreed-upon procedures are summarized in the
Consolidated Schedule of Award and Claimed Costs.

NCLR claimed total costs of $2,861,529 from October 1, 2005, through March 31, 2008. As
a result of testing a judgmentally selected sample of transactions, the auditors questioned
costs claimed, as shown below.


        Description of Questioned Costs            Grant Number         Federal Share
       Cost Transaction Not Properly
       Supported                                   04NDHDC003                  $     120
       Living Allowance Payment Made as
       Lump Sum                                    04NDHDC003                      1,808
       Member Served Second Term Without
       Having an End-of-Term Evaluation
       Performed on Previous Term                  07NDHDC007                      5,766
                                          Total                                $   7,694

The auditors also found unallowable match costs of $1,486 related to both grants but did not
question these costs under grant 04NDHDC003 because, after subtracting these costs,
NCLR would still meet its match obligation. Additionally, grant 07NDHDC007 is still open
and the grantee has until the end of the grant to fulfill its match obligation.

AmeriCorps members who successfully complete terms of service are eligible for education
awards and accrued interest awards funded by the National Service Trust. These award
amounts are not funded by Corporation grants and thus are not costs claimed by NCLR. As
part of our agreed-upon procedures, however, the auditors determined the effect of audit
findings on eligibility for education and accrued interest awards. Using the same criteria
described above, we did not question any education awards.

Details related to these questioned costs and awards appear in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures that follows.

The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
                                            1
requirements, as shown below under the Compliance and Internal Control section. Issues
identified included:

       Lack of controls or controls not implemented during payroll allocation and over
        reporting and recording of Federal–share and match costs;

       Lack of adequate procedures and controls to ensure criminal background checks are
        performed;

       Lack of adequate procedures and controls to ensure living allowances are paid in
        equal increments;

       Late submission of Financial Status Reports, progress reports, member enrollment
        and member exit forms; and

       Missing member evaluations, member orientation not performed and incomplete
        member contracts.

Agreed-Upon-Procedures Scope

The auditors performed the agreed-upon procedures during the period August 19 through
November 21, 2008. The agreed-upon procedures covered the allowability, allocability, and
reasonableness of financial transactions claimed by NCLR between October 1, 2005, and
March 31, 2008. The auditors also performed tests to determine NCLR’s compliance with
terms and provisions for the following grants:

        Program              Award Number             Award Period           Testing Period
AmeriCorps National Direct   04NDHDC003           09/01/04 to 08/31/07   10/01/05 to 08/31/07
AmeriCorps National Direct   07NDHDC007           09/01/07 to 08/31/10   09/01/07 to 03/31/08

The procedures performed, based on the OIG’s agreed-upon-procedures program dated
July 2008, have been included in the Independent Accountants’ Report on Applying Agreed-
Upon Procedures section of this report.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to National Direct grantees,
such as NCLR, and other entities to assist in the creation of full-time and part-time national
and community service programs.

NCLR, based in Washington, DC, is a non-profit National Direct grantee that utilizes
AmeriCorps members from its various subgrantees to provide tutoring services to middle
and high school students, work on substance abuse prevention programs, work with
neighborhood groups, and assist in youth mentoring programs.

NCLR awarded funds to 17 AmeriCorps subgrantees overall during our audit period. NCLR
funded 12 annual AmeriCorps subgrantees during each of the three program years, 2005-
2006, 2006-2007 and 2007-2008, under audit. All subgrantees maintain their own
supporting documentation related to claimed costs and member files. NCLR received grant
                                              2
Awards of $6,217,205, and claimed Federal costs of $2,861,529 for the period of October 1,
2005, through March 31, 2008.


Exit Conference

The contents of this report were discussed with representatives from NCLR and the
Corporation at an exit conference held in Washington, DC on January 26, 2009. In addition,
a draft of this report was provided to officials of NCLR and the Corporation for their comment
on February 25, 2009. Representatives of NCLR and the Corporation agreed with most of
the issues within each finding. They disagreed with the questioned costs associated with a
member who served in a subsequent program year without receiving a required end-of-term
evaluation for the prior program year. NCLR disagreed that the costs should have been
questioned and the Corporation stated it would allow the costs.               NCLR and the
Corporation’s responses are included verbatim as Appendices A and B, respectively, and
are summarized in each finding.




                                              3
              3 Bethesda Metro Center, Suite 600
              Bethesda, MD 20814-6332
              301-951-3636
              301-951-0425
              www.mhm-pc.com

Inspector General
Corporation for National and Community Service


                             INDEPENDENT ACCOUNTANTS’ REPORT ON
                              APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described below for costs claimed between October 1,
2005, and March 31, 2008. The procedures were agreed to by the OIG solely to assist it in
grant-cost and compliance testing of Corporation-funded Federal assistance provided to
NCLR for the awards and periods listed below, with a combined award period of September
1, 2004, to August 31, 2010. This agreed-upon procedures engagement was performed in
accordance with standards established by the American Institute of Certified Public
Accountants and generally accepted government auditing standards. The sufficiency of
these procedures is solely the responsibility of the OIG. Consequently, we make no
representation regarding the sufficiency of the procedures described below, either for the
purpose for which this report has been requested or any other purpose.

        Program                Award Number           Award Period          Testing Period
AmeriCorps National Direct    04NDHDC003          09/01/04 to 08/31/07   10/01/05 to 08/31/07
AmeriCorps National Direct    07NDHDC007          09/01/07 to 08/31/10   09/01/07 to 03/31/08

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on management’s assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

The procedures that we performed included obtaining an understanding of NCLR and its
subgrantee site monitoring process; reconciling Federal share and match costs claimed to
the accounting system; reviewing member files to verify that the records supported member
eligibility to serve and allowability of living allowances and education awards; testing
compliance with selected grant provisions and award terms and conditions; and testing
claimed grant costs and match costs of NCLR to ensure: (i) proper recording of grant costs;
(ii) that the required match was met; and (iii) costs were allowable and supported in
accordance with applicable regulations, OMB circulars, grant provisions, and award terms
and conditions. Grant drawdowns were compared for consistency to the Federal share
reported on NCLR’s Financial Status Reports.


                                 Results – Costs Claimed

The testing results of costs are summarized in the schedules and exhibits below.


                                              4
                Consolidated Schedule of Awards and Claimed Costs
              Corporation for National and Community Service Awards
                             National Council of La Raza

                           October 1, 2005, to March 31, 2008

                                                     Claimed      Questioned
Award Number         Program           Awarded        Costs         Costs      Reference

04NDHDC003       AmeriCorps –
                  National Direct     $ 3,795,847   $ 2,293,795    $ 1,928      Exhibit A

07NDHDC007       AmeriCorps –
                  National Direct      2,421,358       567,734         5,766    Exhibit A

                             Totals   $ 6,217,205   $ 2,861,529     $ 7,694


            Notes to Consolidated Schedule of Awards and Claimed Costs

Basis of Accounting
The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and NCLR. The information presented in the
schedules has been prepared from reports submitted by NCLR to the Corporation and
accounting records of NCLR and its subgrantees. The basis of accounting used in the
preparation of these reports differs from accounting principles generally accepted in the
United States of America as discussed below.

Equipment
No equipment was purchased and claimed under Federal or grantee match of cost for the
period within our audit scope.

Inventory
Minor materials and supplies are charged to expenses during the period of purchase.




                                            5
                                                                             EXHIBIT A

                   Schedule of Awards and Claimed Costs by Grant
                             National Council of La Raza
                         October 1, 2005, to March 31, 2008

                                                    Claimed    Questioned
                   Awards                            Costs       Costs      Reference

        04NDHDC003 – National Direct
 NCLR *                                         $    369,875   $        -
 Association House of Chicago                        185,253            -
 Centro de Salud Familiar La Fe, Inc.*               160,814            -
 Instituto de Progresso Latino                       184,125            -
 Luz Social Services, Inc.*                          163,956            -
 The MAAC Project                                    182,222            -
 Midland Community Development
    Corporation                                      155,304            -
 La Academia Partnership Charter School-
    Spanish American Civic Association*              165,216        1,928 Schedule A-1
 Tejano Center for Community Concern                 213,486            -
 Unity Council                                       157,909            -
 Youth Development, Inc.                             232,019            -
 Voice of Calvary Ministries                          56,454            -
 Neighborhood Housing Resources of New
    Orleans                                          67,162             -
                                    Sub-total   $ 2,293,795    $    1,928
        07NDHDC007 – National Direct
 NCLR *                                         $     93,126   $        -
 Association House of Chicago                         62,515            -
 Centro de Salud Familiar La Fe, Inc.*                45,754            -
 Instituto de Progresso Latino                        33,302            -
 Luz Social Services, Inc.*                           42,737            -
 Latin American Youth Center                          53,304            -
 Mexican American Unity Council                       40,786            -
 La Academia Partnership Charter School-
    Spanish American Civic Association*               22,366        5,766 Schedule A-1
 Youth Policy Institute                               41,296            -
 Unity Council                                        45,375            -
 Youth Development, Inc.                              15,233            -
 Camino Nuevo Charter Academy                         29,421            -
 Information Referral Resources Assistance,
    Inc.                                              42,519            -
                                    Sub-total   $    567,734   $    5,766

                                        Total $ 2,861,529      $    7,694

*Selected for Application of Agreed-Upon Procedures



                                            6
                                                                           Schedule A-1
                                                                             Page 1 of 1

                       Schedule of Award and Claimed Costs
                     Spanish American Civic Association (SACA)


                         Awards 04NDHDC003 and 07NDHDC007

                                                                               Reference

Awarded                                              $272,923                  Note 1

Claimed Federal Costs                                $187,582                  Note 2

Questioned Costs
Unsupported Cost (04NDHDC003)                                          $120 Note 3
Living Allowance Payments Made as Lump
   Sum (04NDHDC003)                                                    1,808 Note 4
Second Term Without End-of-Term Evaluation
  For Previous Term (07NDHDC007)                                       5,766
                                                                               Note 5
Total Questioned Costs                                               $7,694

Notes

1. The amount shown represents the total funding to SACA according to the subgrantee
   agreements.

2. Claimed costs represent SACA’s reported Federal expenditures for the period
   October 1, 2005, through March 31, 2008.

3. One Federal-share costs transaction was not properly supported (see Finding 1).

4. Two members received lump-sum living allowance payments (see Finding 3).

5. One member served a second term without having an end-of-term evaluation performed
   for the previous term (see Finding 5).




                                            7
                           Results - Compliance and Internal Control

The results of our agreed-upon procedures also revealed instances of non-compliance with
grant provisions, regulations, or OMB requirements, as shown below:


Finding 1. Lack of controls or controls not implemented during payroll allocation and
           over reporting and recording of Federal–share and match costs.

Payroll Allocation

NCLR’s personnel costs were not allocated properly to the program and are not claimed at
actual costs. We could not determine the allocation methodology used to charge personnel
costs to the program. NCLR was able to provide a payroll analysis for the period tested to
determine that payroll expenses were being under claimed to the program. Therefore, we
did not question any costs associated with personnel costs.

NCLR stated that it did not know that personnel costs were not being properly claimed to the
program. NCLR stated that it is in the process of creating a new allocation system to
properly account for these charges.

Criteria

OMB Circular A-122, Attachment B, Section 7. Compensation for personal services, states
in part:

m. Support of salaries and wages.

           (1) Charges to awards for salaries and wages, whether treated as direct costs or
           indirect costs, will be based on documented payrolls approved by a responsible
           official(s) of the organization. The distribution of salaries and wages to awards must
           be supported by personnel activity reports, except when a substitute system has
           been approved in writing by the cognizant agency.

           (2) Reports reflecting the distribution of activity of each employee must be
           maintained for all staff members whose compensation is charged, in whole or in part,
           directly to awards. In addition, in order to support the allocation of indirect costs,
           such reports must also be maintained for other employees whose work involves two
           or more functions or activities if a distribution of their compensation between such
           functions or activities is needed in the determination of the organization’s indirect
           cost rate(s). Reports maintained by non-profit organizations to satisfy these
           requirements must meet the following standards:

           (a)The reports must reflect an after-the-fact determination of the actual activity of
           each employee. Budget estimates (i.e., estimates determined before the services
           are performed) do not qualify as support for charges to awards.




                                                 8
           (b) Each report must account for the total activity for which employees are
           compensated and which is required in fulfillment of their obligations to the
           organization.

           (c) The reports must be signed by the individual employee, or by a responsible
           supervisory official having first hand knowledge of the activities performed by the
           employee, that the distribution of activity represents a reasonable estimate of the
           actual work performed by the employee during the periods covered by the reports.

           (d) The reports must be prepared at least monthly and must coincide with one or
           more pay periods.


Unsupported Costs

One of the three AmeriCorps subgrantees we tested charged and claimed unsupported
costs to the Corporation programs. In addition, one of the 15 Federal-share costs
transactions and one of the 10 sub-grantee match costs transactions reviewed at SACA
were not supported. As a result, we questioned Federal-share costs of $120 during
Program Year 2006-2007. We did not question $111 of match costs because, when we
deducted the amount from the total match costs claimed by the grantee, NCLR still met its
matching requirements.

SACA indicated that supporting documentation had been filed in a different location and that
the cost and effort of retrieving the support exceeded the benefit.

Criteria

Corporation regulations at 45 C.F.R. § 2543.21 Standards for financial management
systems, states in part:

           (b) Recipients' financial management systems shall provide for the
           following:

              (1) Accurate, current and complete disclosure of the financial results
                  of each federally-sponsored project or program in accordance with
                  the reporting requirements set forth in §2543.51. . .

              (2) Records that identify adequately the source and application of
                  funds for federally-sponsored activities. These records shall
                  contain information pertaining to Federal awards, authorizations,
                  obligations, unobligated balances, assets, outlays, income and
                  interest.

              (3) Effective control over and accountability for all funds, property and
                  other assets. Recipients shall adequately safeguard all such
                  assets and assure they are used solely for authorized purposes.

2006 AmeriCorps General Provisions, Section V.E. Retention of Records, states:


                                                 9
           The grantee must retain and make available all financial records,
           supporting documentation, statistical records, evaluation and program
           performance data, member information and personnel records, for 3
           years from the date of the submission of the final Financial Status Report
           (SF 269A). If an audit is started prior to the expiration of the 3-year
           period, the records must be retained until the audit findings involving the
           records have been resolved and final action taken.


Costs Charged to the Incorrect Grant Program Year

A portion of the living allowance cost that Luz Social Services claimed for Program Year
2005-2006 should have been claimed for Program Year 2004-2005. We found that one
AmeriCorps member who served in Program Year 2004-2005, had her contract extended
past the regular ending date for the program year because she had a compelling reason for
temporarily leaving the program. Change of status forms were filed to reflect the departure
of the member and her reinstatement when she returned to complete her service hours. As
a consequence of the service extension, the member received, and Luz Social Services
claimed, five living allowance payments totaling $2,428 during Program Year 2005-2006.
These payments should have been claimed within Program Year 2004-2005. This caused
the living allowance cost reporting for program years 2004-2005 and 2005-2006 to be
understated and overstated, respectively, by $2,428. We did not question the erroneous
payment as both program years were part of the same grant.

The subgrantee indicated that the member requested a medical leave of absence during
Program Year 2004-2005. When the member returned during Program Year 2005-2006 she
was re-instated so that she could fulfill the requirements and obligations of the AmeriCorps
program. Luz Social Services was not aware that a no-cost extension could have been
requested from NCLR prior to the granting of the leave of absence; did not know the
procedure on how to claim costs that extended beyond the program year for the member’s’
living allowance, resulting in an incorrect posting of costs in the program period.

Criteria

Corporation regulations at 45 C.F.R. § 2543.28 Period of availability of funds, states:

           Where a funding period is specified, a recipient may charge to the grant
           only allowable costs resulting from obligations incurred during the funding
           period and any pre-award costs authorized by the Federal awarding
           agency.

The 2005 (revised in 2006) AmeriCorps General Provisions, Section V.B. Financial
Management Standards, states in part:

           1. General. The grantee must maintain financial management systems
           that include standard accounting practices, sufficient internal controls, a
           clear audit trail and written cost allocation procedures, as necessary.
           Financial management systems must be capable of distinguishing
           expenditures attributable to this grant from expenditures not attributable
           to this grant. The systems must be able to identify costs by programmatic

                                                 10
         year and by budget category and to differentiate between direct and
         indirect costs or administrative costs. For further details about the
         grantee's financial management responsibilities, refer to OMB Circular A-
         102 and its implementing regulations (45 C.F.R.§2543) or A-110 and its
         implementing regulations (45 C.F.R.§2541), as applicable.

Recommendations

We recommend that the Corporation:

   1a.     Resolve the questioned costs, $120, and recover disallowed costs;

   1b.     Ensure that NCLR develops an effective allocation methodology to charge payroll
           expenses to the appropriate program; and

   1c.     Ensure that NCLR emphasizes, during its subgrantee training, the need to
           maintain adequate support for Federal and match costs claimed and to develop
           control procedures so that only allowable and documented Federal and match
           costs are claimed and are within the proper grant and program period.

NCLR’s Response

NCLR stated that it is in agreement with the unsupported costs in the finding and also stated
it has included language in its subgrantee agreements and policy manual requiring
operating sites to keep a systemic and detailed record of all expenditures that relate to this
grant.

NCLR also acknowledges that it did not use an effective allocation methodology to charge
payroll expenses to the appropriate program. NCLR stated it will correct the allocation and
is the process of finalizing that procedure.

Finally, NCLR stated it has provided AmeriCorps-specific fiscal and program management
training to its grantees and will work with the Corporation to identify any additional best
practices applicable to this issue.

Corporation’s Response

The Corporation is in agreement with the questioned costs and stated it will recover the
amount through debt collection. Additionally, the Corporation stated that it will review the
new allocation methodology when finalized, as well as the content of NCLR’s subgrantee
training concerning allowable and proper documentation of match costs and adherence to
proper grant and program periods.

Auditor’s Comment

The Corporation should consider the actions proposed by NCLR and follow up to ensure
those actions are implemented and effective. Also, as a clarification, the correct questioned
cost is $120, not $111 as identified in the draft report.



                                              11
Finding 2.        Lack of adequate procedures and controls to ensure criminal
                  background checks are performed.


Criminal Background Checks

Four of the eight member files reviewed at SACA did not have evidence that criminal
background checks had been performed on those members. These members had access
to children and/or other vulnerable individuals on a recurring basis. Without obtaining
required background check documentation, the subgrantee cannot ensure that potential
members are eligible to participate in the program in accordance with the AmeriCorps
provisions and may also place service recipients in jeopardy. The individual who served as
SACA’s AmeriCorps program director when this problem occurred is no longer employed by
SACA; therefore, we could not determine the cause of the lack of background checks.

Criteria

The 2005(revised in 2006) AmeriCorps Special Provisions, Section IV.C. Member
Enrollment, states in part:

           7. Criminal Background Checks. Programs with members (18 and
           over) or grant-funded employees who, on a recurring basis, have access
           to children (usually defined under state or local law as un-emancipated
           minors under the age of 18) or to individuals considered vulnerable by the
           program (i.e. the elderly or individuals who are either physically or
           mentally disabled), shall, to the extent permitted by state and local law,
           conduct criminal background checks on these members or employees as
           part of the overall screening process.

           The grantee must ensure, to the extent permitted by state or local law,
           that it maintains background check documentation for members and
           employees covered by this provision in the member or employee’s file or
           other appropriate file. The documentation must demonstrate that, in
           selecting or placing an individual, the grantee or the grantee’s designee
           (such as a site sponsor) reviewed and considered the background
           check’s results.


Recommendations

We recommend that the Corporation ensure that NCLR:

    2a.      Emphasizes, during its subgrantee training, the requirement for criminal
             background checks; and

    2b.      Develop internal procedures to formally document this requirement.




                                                12
NCLR’s Response

NCLR concurs that one of its subgrantees was not able to produce the results of criminal
background check requested by the auditors. NCLR stated that it will create a checklist for
use by all of its programs to provide guidance on background check compliance.

Corporation’s Response

The Corporation stated that it will confirm that NCLR is monitoring its grantees for
compliance with background checks. Furthermore, the Corporation stated it will ensure that
NCLR has written policies and procedures for background checks that are adequately
designed and implemented.

Auditor’s Comment

The Corporation should consider the actions proposed by NCLR and follow up to ensure the
actions are implemented and effective.


Finding 3.        Lack of adequate procedures and controls to ensure living allowances
                  are paid in equal increments.

Living Allowance

For Program Year 2006-2007, we found that two of the four member files reviewed at SACA
received lump sum living allowance payments at the end of their service. These members
concluded terms of service before the originally agreed-upon date and were provided “lump
sum” living allowance payments representing the balance of the living allowance budgeted.
As a result, we questioned the Federal share of the living allowances, and related fringe
benefits, of $1,808. We did not question the grantee share of the living allowance
representing $316, because when we deducted the amount from the total grantee claimed
costs, NCLR still met its matching requirement.

SACA stated it was not aware that it could not pay the remaining living allowance balances
to members if they completed their term of service earlier than expected.

Criteria

2006 AmeriCorps Special Provisions, Section IV.I. Living Allowances, Other In-Service
Benefits and Taxes, states in part:

           1. Living Allowance Distribution. A living allowance is not a wage.
           Programs must not pay a living allowance on an hourly basis. Programs
           should pay the living allowance in regular increments, such as weekly or
           bi-weekly, paying an increased increment only on the basis of increased
           living expenses such as food, housing, or transportation. Payments should
           not fluctuate based on the number of hours served in a particular time
           period, and must cease when a member concludes a term of service.



                                               13
          If a member serves 1700 hours but is permitted to conclude a term of
          service before the originally agreed-upon date, the program may not
          provide a "lump sum" payment to the member. Similarly, if a member
          enrolls after the program's start date, the program must provide regular
          living allowance payments from the member's start date and may not
          increase the member's living allowance incremental payment or provide a
          lump sum to "make up" any missed payments.


Recommendations

We recommend that the Corporation:

    3a.     Resolve the questioned costs of $1,808, and recover disallowed costs; and

    3b.     Ensure that NCLR emphasizes, during its annual subgrantee training, the need to
            follow living allowance requirements and to develop procedures to fulfill these
            requirements.

NCLR’s Response

NCLR believes that this is an isolated event and not a systematic issue. However, it stated
it will develop a test that will improve its ability to monitor living allowance distribution during
their site visits. NCLR will also work with the Corporation to identifying best practices that
relate to this finding.

Corporation’s Response

The Corporation agreed that the questioned costs should be disallowed and will recover
them in debt collection. Additionally, the Corporation stated it will review the content of
subgrantee training to ensure NCLR covers compliance with living allowance requirements
and monitors grantees to ensure compliance.

Auditor’s Comment

The Corporation should consider the actions proposed by NCLR and follow up to ensure
they are implemented and effective.


Finding 4.     Late submission of Financial Status Reports, progress reports, member
               enrollment and member exit forms.

Late Submission

NCLR and the three AmeriCorps subgrantees tested did not always submit required reports
by the dates due, as shown in the table below.




                                                14
             Location                          Description of Non-Compliance

NCLR Headquarters                    1 of 5 FSRs submitted late


Centro de Salud Familiar La          1 of 21 tested enrollment forms submitted late
Fe, Inc.                             5 of 21 tested exit forms submitted late

                                     1 of 21 tested enrollment forms submitted late
Luz Social Services, Inc.
                                     1 of 21 tested exit forms submitted late

 Spanish American Civic
                                     2 of 8 tested exit forms submitted late
 Association

If NCLR does not submit FSRs in a timely manner, the Corporation cannot review the
reports in a timely manner and may not be fully aware of the financial status of grants.
NCLR’s AmeriCorps director stated that the FSR was delayed due to the untimely
completion of the data integration related to NCLR’s conversion to new accounting software.
In addition, NCLR was waiting for some reports from its subgrantees to be included within
the final report.

Centro de Salud Familiar La Fe stated that the delay in the submission of the enrollment
form for one member was due to an oversight. The delay in submitting exit forms for five
members was due to the following reasons: (1) two members had temporarily left the
program for health issues and the subgrantee was uncertain if they would return to resume
service, (2) one member left the program shortly after starting service and returned a couple
months later to sign exit forms, and (3) two members discontinued service without notifying
the program and did not return to sign exit forms.

Luz Social Services stated the untimely submission of the enrollment form was caused by a
delay in receiving approval from the Corporation for a slot conversion change. The Program
Director had requested the combination of two quarter-time slots into one half-time slot and
experienced what was termed an unusually long delay obtaining approval from the
Corporation. The untimely submission of the exit form was because the member did not
finish their term of service and could not be reached to complete the end-of-service
documents.

SACA stated that the exit forms were late due to a clerical error.

These delays resulted in the Corporation not having current information on subgrantees,
members and programs.

Criteria

The 2005(revised in 2006) AmeriCorps Special Provisions, Section IV.N.2. Reporting
Requirements, AmeriCorps Member-Related Forms, states in part:

           The Grantee is required to submit the following documents to the National
           Service Trust at the Corporation on forms provided by the Corporation.
                                                15
         Grantees and Sub-Grantees may use WBRS to submit these forms
         electronically. Program using WBRS must also maintain hard copies of
         the forms.

                a. Enrollment Forms. Enrollment forms must be submitted no
                   later than 30 days after a member is enrolled.

                b. Change of Status Forms. Member Change of Status Forms
                   must be submitted no later than 30 days after a member's
                   status is changed ...

                c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-
                   Term-of-Service Forms must be submitted no later than 30
                   days after a member exits the program or finished his/her term
                   of service.

The 2005(revised in 2006) AmeriCorps Special Provisions, Section IV.N.1. Reporting
Requirements, Financial Status and Progress Reports, states in part:

         a. Financial Status Reports.          Grantee shall submit semi-annual
         cumulative financial status reports, summarizing expenditures during the
         reporting period using eGrants. Financial Status Report deadlines are as
         follows:


                    Due Date                       Reporting Period Covered
                     April 30                      Start of grant through March 31
                    October 31                     April 1 - September 30

                *      *      *      *

Recommendations

We recommend that the Corporation ensure that NCLR:

   4a.     Develops effective control procedures so that its staff meets submission deadlines
           for FSRs; and

   4b.     During its annual subgrantee training, provide guidance to subgrantees on proper
           completion of entrance and exit forms so they are completed and submitted in a
           timely manner.


NCLR’s Response

NCLR acknowledged that the FSR was submitted late, citing the fact that it recently
upgraded its accounting system/software and that this was the first FSR due after the
change. Also, NCLR acknowledged that it needs to work with sites to improve the
submission rates of required forms. NCLR will continue to place emphasis, during training


                                             16
and other monitoring activities, on timely submissions and provide subgrantees with detailed
reports of their submission performance.

Corporation’s Response

The Corporation stated that all subsequent FSRs submitted by NCLR have been on time. It
also stated that it will ensure that NCLR adequately trains subgrantees on timely completion
of exit and entrance forms.

Auditor’s Comment

The Corporation should consider the actions proposed by NCLR and follow up to ensure the
actions are implemented and effective.


Finding 5.      Missing member evaluations, member orientation not performed and
                incomplete member contracts.


Member Evaluations

Two of three tested AmeriCorps subgrantees did not perform end-of-term and mid-term
evaluations for some of its members. We found that three of 21 member files reviewed at
Centro de Salud Familiar La Fe did not have a mid-term or an end-of-term evaluation
performed during Program Year 2005-2006. Also, four of the eight members reviewed at
SACA did not have a mid-term or an end-of-term evaluation performed. As a result, these
members were also ineligible to serve a second AmeriCorps term of service. Centro de
Salud Familiar Le Fe stated that the end-of-term evaluations were not performed because
one member discontinued her service without notifying the program and the other two
members had health issues that would not allow them to return to complete a final
evaluation. The mid-term evaluations for all three members were not completed due to an
oversight.

SACA stated that the AmeriCorps Program Director is supposed to perform mid-year
evaluations on all full-time members, as well as end-of term evaluations of all members,
regardless of their status and hours performed. The person who served as program director
during the audited period is no longer employed by SACA; therefore, we could not
determine the cause of this issue.

All four member files reviewed for Program Year 2006-2007 lacked documentation of a mid-
term or an end-of-term evaluation. When an evaluation is not performed, there is no way to
determine if the member satisfactorily completed the term of service and is therefore eligible
to serve a second term.

We found that one of the SACA members served during subsequent Program Year 2007-
2008. We questioned the Federal share of the member’s living allowance and related fringe
benefits, totaling $5,766. We did not question the grantee share of $1,059 as the related


 Question Federal share only relates to the living allowances and related fringe benefits within our audit scope
ending March 31, 2008.
                                                       17
grant is still open and the grantee has until the end of the grant period to fulfill its match
obligation.

Criteria

The 2005(revised in 2006) AmeriCorps Special Provisions, Section IV.D. Training,
Supervision and Support, states in part:

    6. Performance Reviews. The grantee must conduct and keep a record of
       at least a midterm and end-of-term written evaluation of each member's
       performance for Full and Half-Time members and an end-of-term written
       evaluation for less than Half-time members. The evaluation should focus
       on such factors as:

              a. Whether the member has completed the required number of
                 hours;
              b. Whether the member has satisfactorily completed assignments;
                 and
              c. Whether the member has met other performance criteria that were
                 clearly communicated at the beginning of the term of service.

45 CFR § 2522.220, states in part:

           c. Eligibility for second term. A participant will only be eligible to serve
           a second or additional term of service if that individual has received
           satisfactory performance review(s) for any previous term(s) of service . . .

Member Contract Did Not Contain Required Elements

The contract for one of the eight members reviewed at SACA did not clearly specify the
minimum number of service hours to be performed. SACA stated that the service
agreement in use at the time did not provide for the ability to specifically annotate the
minimum hours to be service by the member. Therefore, the contract did not adhere to the
AmeriCorps Special Provisions.


Criteria

2005 AmeriCorps Special Provisions, Section IV.E. Training, Supervision, & Support, states
in part:

    2. Member Contracts. The grantee must require that members sign
    contracts that at a minimum, stipulate the following:

           a. The minimum number of service hours and other requirements (as
              developed by the Program) necessary to successfully complete the
              term of service and to be eligible for the education award;
           b. Acceptable Conduct;
           c. Prohibited activities, including those specified in the regulations;


                                                 18
           d. Requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et
              seq.);
           e. Suspension and termination rules;
           f. The specific circumstances under which a member may be released
              for cause;
           g. The position description;
           h. Grievance procedures; and
           i. Other requirements as established by the Program.

Member Orientation Not Performed

Two of the eight members reviewed at SACA did not attend orientation prior to the start of
service. SACA indicated that it was not aware of the cause and that the person serving as
AmeriCorps director during that time is no longer employed. Without completing an
orientation, the members may not have the knowledge needed to carry out their duties
within the requirements of the AmeriCorps Special Provisions.

Criteria

2005 AmeriCorps Special Provisions, Section IV.D. Training, Supervision and Support,
states in part:

  3. Consistent with the approved budget, the grantee must provide members with
  the training, skills, knowledge and supervision necessary to perform the tasks
  required in their assigned project positions, including specific training in a
  particular field and background information on the community served.

  The grantee must conduct an orientation for members and comply with any pre-
  service orientation or training required by the Corporation. This
  orientation should be designed to enhance member security and sensitivity to the
  community. Orientation should cover member rights and responsibilities,
  including the Program's code of conduct, prohibited activities (including those
  specified in the regulations), requirements under the Drug-Free Workplace Act
  (41 U.S.C. 701 et seq.), suspension and termination from service, grievance
  procedures, sexual harassment, other non-discrimination issues, and other
  topics as necessary.

Recommendations

We recommend that the Corporation:

    5a.      Resolve the questioned costs, $5,766, and recover disallowed costs; and

    5b.      Ensure that NCLR provides guidance, during its annual subgrantee training, to
             ensure required member orientations and evaluations are completed, and member
             contracts include all of the required elements.




                                               19
NCLR’s Response

NCLR does not concur with the $5,766 in questioned costs. While agreeing that a final
evaluation is important, NCLR states that the exit form and all other supporting
documentation retained in the member’s file also serve as a notification that the member
successfully completed the first term of service. NCLR stated it will take corrective action to
ensure that programs conduct all evaluations and maintain them in member files.

Additionally, NCLR stated it has implemented corrective actions to ensure that subgrantees
are providing members with orientation. Subgrantees are required to submit agendas of
their orientation to NCLR before the beginning of the program year. Also, NCLR stated it
will develop an additional member contract monitoring checklist. Lastly, NCLR will make it a
practice to automatically review first-year files of any members serving a second term to
ensure that all relevant documents are present.

Corporation’s Response

The Corporation stated it will allow the $5,766 in questioned costs. While agreeing that a
final evaluation is an important compliance requirement, it stated that the exit form submitted
to the Corporation also served as an adequate notification that the member successfully
completed the first term. The Corporation further stated that it will verify implementation of
NCLR’s proposed new procedures.

Auditor’s Comment

The Corporation should consider the actions proposed by NCLR and follow up to ensure
they are implemented and effective. Regarding the exit evaluation, we maintain our position
as the AmeriCorps provisions which apply in this instance clearly state that a “Performance
Review” must be performed to validate the satisfactory performance of the exiting member.


This report is intended for the information and use of the Office of Inspector General,
Corporation, management, NCLR, and the U.S. Congress. However, this report is a matter
of public record and its distribution is not limited.




Bethesda, Maryland
March 30, 2009




                                              20
                                                                                   Exhibit B


         Consolidated Schedule of Recommendations and Questioned Costs


                         Questioned Costs                          Funds Put to
                                                                              3
Recommendation   Unallowable1        Unsupported2                  Better Use
1a.                               $120
3a.            $1,808
5a.            $5,766

Consolidated List of Recommendations




_______________

1. Questioned Cost means a cost that is unallowable because of:
    a. an alleged violation of a provision of a law, regulation, contract, grant, cooperative
        agreement, or other agreement or document governing the expenditure of funds;
    b. a finding that, at the time of the audit, such cost is not supported by adequate
        documentation; or
    c. a finding that the expenditure of funds for the intended purpose is unnecessary or
    unreasonable.

2. Unsupported Cost means a cost that is questioned because at the time of the audit, such
cost is not supported by adequate documentation. Unsupported costs are included in the
total of unallowable costs.

3. Recommendation that funds put to better use means a recommendation that funds could
be used more efficiently if management takes actions to implement and complete the
recommendation, including:
   a. reductions in outlays;
   b. deobligation of funds from programs or operations;
   c. withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
      bonds;
   d. costs not incurred by implementing recommended improvements related to the
      operations of the establishment, a contractor or grantee;
   e. avoidance of unnecessary expenditures noted in preaward reviews of contract or
      grant agreements; or
   f. any other savings which are specifically identified.
                    APPENDIX A

National Council of La Raza’s Response to Draft Report
March 25, 2009


Stuart Axenfeld
Assistant Inspector General for Audit
Corporation for National and Community Service
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

Dear Mr. Axenfeld:

Enclosed please find conunents from the National Council of La Raza (NCLR) to the Office of
Inspector General on the agreed-upon procedures for grants awarded to NCLR by the
Corporation for National and Conununity Service. It has been a pleasure working with you and
your team during this process.

If you would like to request additional information, please feel free to contact Claudia Rosario,
Controller, at (202) 776-1742 or crosario@nclr.org.

Sincerely,


nJW1~It~
~urgU1a
President and CEO


Enclosure

cc: Wilfredo Corps, Audit Manager, Mayer Hoffman McCann P.C.
                                        NCLR Response

Finding 1. Lack of controls or controls not implemented during payroll allocation and
           over reporting and recording of federal-share and match costs.

    la.   Resolve the questioned costs, $111, and recover disallowed costs.

    1b.   Ensure that NCLR develops an effective allocation methodology to charge payroll
          expenses to the appropriate program.

    lc.   Ensure that NCLR emphasizes, during its subgrantee training, the need to maintain
          adequate support for federal and match costs claimed and to develop control
          procedures so that only allowable and documented federal and match costs are claimed
          and are within the proper grant and program period.

NCLR's Response
1a and Ie: NCLR is in agreement that documentation was not available for the auditors to
review and determine if the $111 was allowable or not. NCLR has included language in its
sub grant agreements and program policy manual stating that the operating sites shall keep a
systematic and detailed record of all expenditures that relate to this grant. This means being able
to show that expenditures are allowable based on the cost principles detailed in the appropriate
Office of Management and Budget's (OMB) circulars for nonprofits. Additionally, NCLR
provides, and has provided, AmeriCorps-specific fiscal and program management training to our
grantees. The training is conducted by Corporation-approved trainers. We look forward to
working with the Corporation on identifying any additional best practices applicable to these
findings.

Ib: NCLR is in agreement that it did not use an effective allocation methodology to charge
payroll expenses to the appropriate program. NCLR will work on correcting the allocation and is
in the process of finalizing that procedure.

Finding 2.     Lack of adequate procedures and controls to ensure criminal background
               checks are performed.

   2a.    Emphasize, during NCLR's subgrantee training, the requirement for criminal
          background checks.

   2b.    Develop internal procedures to formally document this requirement.

NCLR's Response
2a and 2b: NCLR concurs that one of its subgrantees was not able to produce the results of a
background check request. Spanish American Civic Association (SACA),s long-time program
director is no longer employed at the agency and was unavailable to comment on the status ofthe
background checks of the four out of eight member files that were tested. During site visits
conducted by NCLR, SACA produced background checks that were filed with the appropriate
government agency. It should be noted that at no time were members left unsupervised and in
charge of serving with vulnerable populations. SACA has also developed a centralized system
through its human resources department to handle the background check request. NCLR
continues to provide thorough monitoring activities to ensure that grantees are in compliance
with background checks. During site visits, NCLR reviews member files to ensure that files are
in compliance. Additionally, NCLR reviews critical provisions during monthly calls with the
program director and updates grantees accordingly. NCLR will create a checklist to use with all
of its programs to provide guidance on background check compliance. NCLR welcomes the
opportunity to work with the Corporation in identifying additional best practices aimed at
tightening our monitoring activities.

Finding 3.     Lack of adequate procedures and controls to ensure living allowances are
               paid in equal increments.

   3a.    Resolve the questioned costs, $1,808, and recover disallowed costs.

   3b.    Ensure that NCLR emphasizes, during its annual sub grantee training, the need to
          follow living allowance requirements and to develop procedures to fulfill these
          requirements.

NCLR's Response
NCLR believes that this is an isolated event and not a systematic issue. However, we will also
develop a test that will better allow us to monitor living allowance distribution during site visits
and the program year. NCLR, through its annual training, has provided an overview on how to
distribute the living allowance. Corporation-approved trainers have also worked with our
grantees on developing an appropriate system to ensure compliance with ArneriCorps provisions.
NCLR will use this audit report to highlight the importance of this provision. We welcome the
opportunity to work with the Corporation on identifying best practices that relate to this finding.

Finding 4.    Late submission of fmancial status reports (FSRs), progress reports, member
              enrollment, and member exit forms.
   4a.    Develops effective control procedures so that its staff meets submission deadlines for
          FSR.

   4b.    During NCLR's annual subgrantee training, provide guidance to subgrantees on proper
          completion of entrance and exit forms so they are completed and submitted in a timely
          manner.

NCLR's Response
NCLR concurs with the late submission of one of its FSRs due on April 30, 2006. NCLR had
recently upgraded its accounting system/software and this was the first report that was due after
the change. Integration of the data between the two systems needed to be completed to generate
the FSR and this took longer than normal. Since that time NCLR has submitted their FSR's on
time. NCLR acknowledges that it needs to work with sites to improve their submission rates of
required forms. During trainings and other monitoring activities NCLR will continue to place
emphasis on timely submissions and provide grantees with detailed reports of their submission
performance. Lastly, NCLR will use this audit report to emphasize the importance of compliance
with on time submissions.
Finding 5.   Missing member evaluations, member orientation not performed, and
             incomplete member contracts.
   Sa.   Resolve the questioned costs, $5,766, and recover disallowed costs.

   5b.   Ensure that NCLR provides guidance, during its annual sub grantee training, to ensure
         required member orientations and evaluations are completed, and member contracts
         include all of the required elements.

NCLR's Response
NCLR does not concur with the $5,766 in questioned costs. NCLR agrees that a final evaluation
is important in evaluating successful completion of a member's term; however, the exit form and
all other supporting documentation found in the member's file also serve as a notification that a
member has successfully completed its first term. NCLR will take corrective action to ensure
that programs conduct all evaluations and maintain them in the appropriate member files.

Additionally, NCLR has implemented corrective action plans to ensure that grantees are
providing orientations. Grantees are required to submit agendas of their orientation to NCLR
before the beginning of the program year. Also, NCLR will work on developing an additional
member contract monitoring checklist. The list will detail the important parts and information
that, at a minimum, should be found in the contract. Lastly, NCLR will make it a practice to
automatically review first-year member files of any individuals serving a second term to ensure
that all relevant information can be found in the files.
                              APPENDIX B

Corporation for National and Community Service’s Response to Draft Report
                                NATIONAL &
                                COMMUNITY
                                SERVICBUX::
To:             Stuart Axenfeld, Ins   ctor General for Audit

From:

Date:           M

Subject:        Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to the
                National Council of La Raza, Inc.


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grants awarded to the National Council of La Raza, Inc.
(NCLR). The Corporation reviewed the OIG report, met with the auditors and the grantee and
reviewed the NCLR draft response to the audit. We are addressing all draft findings at this time.

The Corporation concurs with Findings 1 through 4 and will work with NCLR to implement the
associated recommendations. The Corporation concurs with Finding 5, but declines to accept the
monetary recommendation presented by the OIG. Our response to each finding and
recommendation is described below.

Finding 1. Lack of controls or controls not implemented during payroll allocation and
over-reporting and recording of Federal share and match costs.

The auditors recommend the Corporation ensure that NCLR:

      1a. Resolve the questioned costs, $111, and recover disallowed costs;
      1b. Ensure that NCLR develops an effective allocation methodology to charge
          payroll expenses to the appropriate program; and
      Ic. Ensure that NCLR emphasizes, during its subgrantee training, the need to
          maintain adequate support for Federal and match costs claimed and to develop
          control procedures so that only allowable and documented Federal and match
          costs are claimed and are within the proper grant and program period.

         Corporation Response: The Corporation and NCLR agree that the $111 cost was not
         supported and is disallowed. The Corporation will recover the amount through debt
         collection. In regards to 1b, NCLR is finalizing a new allocation process for payroll
         expenses which the Corporation will review when it is completed. The Corporation will
         also review the content ofNCLR sub grantee training concerning allowable and proper
         documentation of match costs and adherence to proper grant and program periods.
Finding 2. Lack of adequate procedures and controls to ensure criminal background
checks are performed.

The auditors recommend the Corporation ensure that NCLR:

   2a.    Emphasizes, during its sub grantee training, the requirement for criminal background
          checks; and
   2b.    Develop intemal procedures to fonnally document this requirement.

           Corporation Response: The Corporation will confinn that NCLR monitors grantees
           for compliance with background checks and that it updates and reviews critical
           provisions during monthly program directors' calls. Furthennore, the Corporation
           will ensure that NCLR's subgrantee training on this issue adequately addresses the
           audit recommendation. In regards to 2b, the Corporation will ensure NCLR has
           written policies and procedures for background checks that are adequately designed
           and implemented to strengthen compliance with requirements for criminal
           background checks.

Finding 3. Lack of adequate procedures and controls to ensure living allowances are paid
in equal increments.

The auditors recommend the Corporation ensure that NCLR:

   3a.    Resolve the questioned costs, $1,808, and recover disallowed costs; and
   3b.    Ensure that NCLR emphasizes, during its annual subgrantee training, the need to
          follow living allowance requirements and to develop procedures to fulfill these
          requirements.

           Corporation Response: The Corporation and NCLR agree the $1,808 in living
           allowance costs are disallowed and will recover them in debt collection. In its
           response to the draft audit, NCLR stated it includes language related to the living
           allowance distribution in its policy and procedures manual. The Corporation will
           review the language and the content of sub grantee training to ensure NCLR covers
           compliance with living allowance requirements and monitors grantees to ensure
           compliance.

Finding 4. Late submission of Financial Status Reports, progress reports, member
enrollment and member exit forms.

The auditors recommend the Corporation ensure that NCLR:

    4a.   Develops effective control procedures so that its staff meets submission deadlines for
          FSRs; and
    4b.   During its annual subgrantee training, provide guidance to sub grantees on proper
          completion of entrance and exit fonns so they are completed and submitted in a timely
          manner.
             Corporation Response: In its response to the draft, NCLR noted that the one FSR that
             was late was due when NCLR was upgrading its accounting system software. The
             Corporation verified that since that time the FSRs have been on time. The Corporation
             will ensure NCLR adequately trains subgrantees on timely completion of exit and
             entrance forms.

Finding 5. Missing member evaluations, member orientation not performed and
incomplete member contracts.

The auditors recommend the Corporation ensure that NCLR:

      Sa.     Resolves the questioned costs, $5,766, and recover disallowed costs; and
      5b.     Ensures that NCLR provides guidance, during its annual subgrantee training, to ensure
              required member orientations and evaluations are completed, and member contracts
              include all of the required elements.

               Corporation Response: The Corporation will allow the $5,766 in questioned costs.
               The auditors questioned living allowance and related benefits paid to one member
               serving a second term because there was no written evidence that an end-of-term
               evaluation was conducted. The Corporation's regulations state that members aren't
               eligible for a second term unless they successfully complete the first term. The
               Corporation agrees that a final evaluation is an important program compliance
               requirement, but the exit form submitted to the Corporation also serves as a
               notification that a member successfully completed the first term. Therefore, we will
               allow the second term costs. However, NCLR must ensure evaluations are
               completed. NCLR stated it will revise monitoring procedures to review first-year
               member files for all individuals serving a second term. NCLR will also require
               subgrantees to submit agendas of their orientation to NCLR before the beginning of
               the program year. The Corporation will verify implementation of the procedures.


Cc:         William Anderson, Acting Chief Financial Officer for Finance
            Frank Trinity, General Counsel
            Kristin McSwain, Director of AmeriCorps
            Sherry Blue, Audit Resolution Coordinator
